 DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
                                                                          (617) 565-2684

September 29, 2011

Report Number: A-01-11-00512

Mr. Steven C. Bjelich
President and CEO
Saint Francis Medical Center
211 Saint Francis Drive
Cape Girardeau, MO 63703

Dear Mr. Bjelich:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Verification of Saint Francis Medical Center’s Refund of
Place-of-Service Overpayments for Calendar Years 2009 Through 2010. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
dlamir@oig.hhs.gov. Please refer to report number A-01-11-00512 in all correspondence.

                                             Sincerely,



                                             /Michael Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Neal Burkhead


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF

       INSPECTOR GENERAL





   VERIFICATION OF SAINT

 FRANCIS MEDICAL CENTER’S 

REFUND OF PLACE-OF-SERVICE 

OVERPAYMENTS FOR CALENDAR

 YEARS 2009 THROUGH 2010





                       Daniel R. Levinson

                        Inspector General


                        September 2011

                         A-01-11-00512

                        Office ofInspector General
                                          http:// oig.hhs.gov



The mission of the Office oflnspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud , waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations offraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCJG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicare Part B pays for services that physicians provide to program beneficiaries. Although
physicians routinely perform many of these services in a hospital outpatient department or a
freestanding ambulatory surgical center, physicians also perform some services in nonfacility
settings, such as physician offices, urgent care centers, or independent clinics. To account for
the increased overhead expense that physicians incur by performing services in nonfacility
locations, Medicare reimburses physicians at a higher rate for certain services performed in these
locations. However, when physicians perform these same services in facility settings Medicare
reimburses the overhead expenses to the facilities and physicians receive a lower reimbursement
rate.

Physicians are required to identify the place of service on the health insurance claim forms that
they submit to Medicare contractors. The correct place-of-service code ensures that Medicare
does not reimburse a physician incorrectly for the overhead portion of the payment if the service
was performed in a facility setting.

Our previous nationwide reviews found that several contractors overpaid physicians who did not
correctly identify the place of service on their claims. These audits identified over a million
nonfacility-coded physician services that matched outpatient hospital claims for the same type of
service provided to the same beneficiary on the same day. These reviews identified numerous
instances of overpayments to Saint Francis Medical Center (the Hospital) physicians because
claims the Hospital submitted contained an incorrect place-of-service code.

The Hospital submits claims for the overhead expenses of medical services performed at the
Hospital and bills on behalf of its physicians for their Part B physician services. In addition, two
independent physician practices use the same billing service as the Hospital for Part B services
performed at the Hospital; we included these practices’ billing claims in our review of the
Hospital’s overpayments. As the Medicare contractor for hospital and physicians in Missouri,
Wisconsin Physician Services processes and pays the Hospital’s claims for Medicare outpatient
services and its claims for physician services.

The Hospital’s officials insisted on refunding all overpayments received resulting from these
place-of-service coding errors. The Hospital asked the Office of Inspector General to verify the
accuracy of its overpayment calculations so it could refund its Medicare contractor.

OBJECTIVE

Our objective was to determine the amount of overpayments for claims with place-of-service
coding errors submitted by the Hospital to its Medicare contractor for calendar years (CY) 2009
through 2010.




                                              i
SUMMARY OF FINDING

We determined that the Hospital and two independent physicians who performed services at the
Hospital submitted 24,561 claims totaling $1,193,275 with overpayments totaling $267,433 for
physician services for CYs 2009 through 2010. The Hospital and the two independent
physicians used a third-party billing company that incorrectly coded these claims by using
nonfacility place-of-service codes for services that were performed in one of the Hospital’s
outpatient facilities.

RECOMMENDATIONS

We recommend that the Hospital complete its total refund of $267,433 for overpayments from
coding errors submitted on behalf of Hospital physicians for CYs 2009 and 2010.

SAINT FRANCIS MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital agreed that the total refund amount was
$267,433 for overpayments from coding errors on behalf of Hospital-employed physicians and
two independent physicians for CYs 2009 and 2010, but the Hospital disagreed with the amount
of repayment it owed for outstanding overpayments for CY 2010. The Hospital stated that it had
completed repayment for CY 2009 and had been resubmitting corrected claims for CY 2010.
The Hospital stated that the remaining outstanding overpayments were approximately $28,264.
The Hospital’s comments are included in their entirety as Appendix A.




                                          ii
                                           TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION................................................................................................................1

         BACKGROUND ........................................................................................................1
             Medicare Part B Payments for Physician Services ...........................................1
             Medicare Reimbursement for Practice Expense ...............................................1
             Prior Office of Inspector General Reports ........................................................1
             Saint Francis Medical Center ............................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope .................................................................................................................2
              Methodology .....................................................................................................3

FINDING AND RECOMMENDATIONS .........................................................................3

          PAYMENTS BASED ON INCORRECT PLACE OF SERVICE ............................4
             Medicare Requirements ....................................................................................4
             Results of Review .............................................................................................4
             Inadequate Billing Controls ..............................................................................4

          RECOMMENDATIONS ...........................................................................................5

          SAINT FRANCIS MEDICAL CENTER COMMENTS ..........................................5


APPENDIX

          SAINT FRANCIS MEDICAL CENTER COMMENTS




                                                                iii
                                   INTRODUCTION

BACKGROUND

Medicare Part B Payments for Physician Services

Medicare Part B pays for services that physicians provide to program beneficiaries.
Physician services include medical and surgical procedures, office visits, and medical
consultations. These services may be provided in facility settings, such as hospital
outpatient departments and freestanding ambulatory surgical centers (ASC), or in
nonfacility locations, such as physician offices, urgent care centers, and independent
clinics.

Physicians are paid for services according to the Medicare physician fee schedule. This
schedule is based on a payment system that includes three major categories of costs
required to provide physician services: practice expense, physician work, and
malpractice insurance.

Medicare Reimbursement for Practice Expense

Practice expense reflects the overhead costs involved in providing a service. To account
for the increased practice expense that physicians generally incur by performing services
in their offices and other nonfacility locations, Medicare reimburses physicians at a
higher rate for certain services performed in these locations rather than in a hospital
outpatient department or an ASC. Physicians are required to identify the place of service
on the health insurance claim forms that they submit to Medicare contractors. The
correct place-of-service code ensures that Medicare does not reimburse a physician
incorrectly for the overhead portion of the service if the service was performed in a
facility setting.

Medicare claim form instructions specifically state that each provider or practitioner is
responsible for becoming familiar with Medicare coverage and billing requirements.
Some physician offices submit their own claims to Medicare; other offices hire billing
agents to submit their claims. Physicians are responsible for any Medicare claims
submitted by billing agents.

Prior Office of Inspector General Reports

Our previous nationwide reviews (A-01-08-00528 and A-01-09-00503) found that
several contractors overpaid physicians who did not correctly identify the place of service
on their claims. These audits identified over a million nonfacility-coded physician
services that matched outpatient hospital claims for the same type of service provided to
the same beneficiary on the same day. Our recommendations in those reports called for
the Medicare contractors to educate physicians regarding proper billing, recover
identified overpayments, and analyze postpayment data to detect and recover




                                             1
overpayments for improperly billed claims. The Medicare contractors and CMS
generally concurred with our recommendations.

Saint Francis Medical Center

Saint Francis Medical Center (the Hospital) is a 258-bed acute-care hospital located in
Cape Girardeau, Missouri. The Hospital submits claims for the overhead expenses of
medical services performed at the hospital and bills on behalf of its physicians, for their
Part B physician services. In addition, two independent physician practices use the same
billing service as the Hospital for Part B services performed at the Hospital; we included
these practices’ billing claims in our review of the Hospital’s overpayments. As the
Medicare contractor for hospitals and physicians in Missouri, Wisconsin Physician
Services (WPS) processes and pays the Hospital’s claims for Medicare outpatient
services and its claims for physician services.

Our nationwide reviews identified numerous instances of overpayments by WPS to the
Hospital for physician claims that contained an incorrect place-of-service code in
calendar year (CY) 2009. Hospital officials insisted on refunding all overpayments
received resulting from these place-of-service coding errors. 1 The Hospital has stated
that it has corrected and resubmitted claims with overpayments in CY 2010. For claims
in CY 2009, the Hospital has stated that it has prepared files of all miscoded claims billed
with calculated overpayments totaling $144,054. The Hospital sent WPS three refund
checks totaling $144,054 for CY 2009.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the amount of overpayments for claims with place-of-
service coding errors submitted by the Hospital to its Medicare contractor for CYs 2009
through 2010.

Scope

Based on the Hospital’s request, we performed a limited scope review to determine the
accuracy of overpayments to be refunded by the Hospital for claims with physician place-
of-service coding errors for CYs 2009 through 2010.

Our audit covered 24,561 nonfacility-coded physician services valued at $1,193,275 that
were provided in CYs 2009 and 2010 and that matched hospital outpatient claims for the
same type of service provided to the same beneficiary on the same day.



1
  The Hospital will include in its refund for place-of-service overpayments the overpayments made to two
independent physician practices that performed services at one of the Hospital’s clinics.



                                                    2
The objective of our audit did not require an understanding or assessment of the complete
internal control structure at the Hospital. Therefore, we limited our review of internal
controls to the billing controls in place at the Hospital to prevent future program
overpayments resulting from place-of-service billing errors.

We conducted our fieldwork from February through July 2011.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Medicare laws and regulations;

   •   used data from our prior place-of-service reviews for CY 2009 to identify all
       office-coded physician claims that matched claims submitted by the Hospital for
       the same service performed for the same beneficiary on the same date;

   •   calculated the difference for each of these claims between the amount paid and
       the amount that would have been paid had the place-of-service been coded
       correctly;

   •   obtained support for the Hospital-calculated overpayments on claims with place-
       of-service errors in CYs 2009 and 2010;

   •   compared our data to the Hospital’s support documentation and worked with the
       hospital to verify the accuracy of the overpayment total to ensure the
       completeness of the refund; and

   •   discussed the results of our review with officials of both the Hospital and WPS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

We determined that the Hospital and two independent physicians who performed services
at the Hospital submitted 24,561 claims totaling $1,193,275 with overpayments of
$267,433 for physician services for CYs 2009 and 2010. The Hospital and two
independent physicians used a third-party billing company that incorrectly coded these
claims by using nonfacility place-of-service codes for services that actually were
performed in one of the Hospital’s outpatient facilities.




                                            3
PAYMENTS BASED ON INCORRECT PLACE OF SERVICE

Medicare Requirements

Medicare payment for physician services is based on the lower of the actual charge or the
physician fee schedule amount. 2

For a physician to receive the higher nonfacility practice expense payment for a service,
the service must meet the requirements of 42 CFR § 414.22(b)(5)(i)(B), which, during the
audit period, provided: “The higher nonfacility practice expense [relative value units]
apply to services performed in a physician’s office, a patient’s home, a nursing facility, or
a facility or institution other than a hospital or skilled nursing facility, community mental
health center, or ASC performing an ASC approved procedure.” CMS publishes a
quarterly physician fee schedule in the Federal Register showing those services that have
a higher payment rate if performed in a nonfacility setting.

Results of Review

The Hospital submitted 24,561 incorrectly coded claims for physician services for CYs
2009 through 2010. The Hospital, billing on behalf of physicians, incorrectly coded these
claims by using nonfacility place-of-service codes for services that actually were
performed in one of the Hospital’s outpatient facilities. When these services were billed
with the incorrect office place-of-service code, the physicians were paid the higher
nonfacility practice expense payment that they were not entitled. As a result, WPS
incorrectly reimbursed the Hospital on behalf of its physicians for the overhead portion of
their services.

By repricing claims using the correct place-of-service code, we determined that WPS
overpaid the Hospital, on behalf of its physicians, $267,433 for the 24,561 services that
the Hospital had billed incorrectly.

Inadequate Billing Controls

Sample items from our prior nationwide reviews identified that the Hospital did not have
adequate controls to ensure that its physician services claims were billed in accordance
with Medicare regulations during CYs 2009 through 2010. At that time, the Hospital
identified that these coding errors resulted from a change in billing companies which
occurred January 1, 2009. Specifically, an undetected flaw in the design or
implementation of the software used for billing physician services claims caused all
physician services claims to be submitted with a nonfacility location as the place of
service.




2
    Section 1848(a)(1) of the Social Security Act, 42 U.S.C. § 1395w-4(a)(1).



                                                       4
We verified that the Hospital had corrected the cause of the coding errors in November
2010 by correcting billing software for physician services performed at the Hospital to
correctly reflect the facility place-of-service code.

RECOMMENDATION

We recommend that the Hospital complete its total refund of $267,433 for overpayments
from coding errors submitted on behalf of Hospital physicians for CYs 2009 and 2010.

SAINT FRANCIS MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital agreed that the total refund amount
was $267,433 for overpayments from coding errors on behalf of Hospital-employed
physicians and two independent physicians for CYs 2009 and 2010, but the Hospital
disagreed with the amount of repayment it owed for outstanding overpayments for CY
2010. The Hospital stated that it had completed repayment for CY 2009 and had been
resubmitting corrected claims for CY 2010. The Hospital stated that the remaining
outstanding overpayments were approximately $28,264. The Hospital’s comments are
included in their entirety as Appendix A.




                                            5
APPENDIX
             APPENDIX: SAINT FRANCIS MEDICAL CENTER COMMENTS
                                                                                                       Page 1 of2
                                       RICHARD D. WATTERS                  MISSOURI

LASHLY & BAER ,P.C.                    Licensed in Missouri and Illinois   7 t 4 Locm( Streef
                                                                                                         ILLINOIS

                                                                                                         20 East M~ln Srreet
ATTORNI'YS   AT   LAW
                                       D IRE C T:   314436.8350            $t. LOtll'. MO 63101·1699     belleville, It 6U20-1602
                                                                           T'j'  :114 621.2939           TEl.; 618 23.3.5587
                                       rdwallers@whfyhlUr.<'om
                                                                           f',,,; 311 621.6s·14          By Appoinrment Only
                                                                           wwUl.lashtybaer. (om




September 13,2011


VIA EMAIL
David.lamir@oig.hhs.gov
and UNITED STATES MAIL

Michael Annstrong
Regional Inspector General for Audit Services
Department of Health and Senior Services, Region I
.Tohn F. Kennedy Federal Building, Room 2425
Boston, MA 02203

Re:    Report No. A-Ol-l1-00S12

Dear Mr. Armstrong:

This is to comment on the draft report "Verification of Saint Francis Medical Center's Refund of
Place-of-Service Overpayments for Calendar Years 2009-2010."

General Comments:

We first wish to clarify that all billing was done by a third party billing company, not the
Hospital. Second, while most of the physicians were Hospital employees on whose behalf the
Hospital retained the billing company, two physicians were independent of the Hospital and they
chose to contract with the same independent company because they felt that would be the most
cost effective, since the billing company was billing for the same services by Hospital-employed
physicians. As stated in previous communications, when the new billing company was put in
place as of January 1, 2009, erroneous place of service codes were keyed into its billing software
system for certain "places" of service, which is why the errors occurred for both the employed
and non-employed physicians when they provided services at those miscoded places.

The $267,433 overpayment cited in the Report is for both CY' s 2009 and 2010. The $144,054 in
refunds already made represents refunds made for CY 2009 overpayments. The errors were first
discovered in late 2010 and the Hospital immediately began refiling corrected claims for almost
all of 2010. WPS began making adjustments to future payments eliminating the need to submit
cash refunds for the CY 2010 overpayments. To date, all 2010 payments have been corrected
except for approximately $28 ,264. Thus, there is very little overpayment remaining for CY 2010
and certainly not $123,379.
                                                                                      Page 2 of2


Michael Annstrong 

Regional Inspector General for Audit Services 

Department of Health and Senior Services, Region I 

September 13, 2011 

Page 2 



Recommendation

With respect to the Report's one "Recommendation," that the Hospital refund $123 ,379 to WPS
to complete its total refund of$267,433, we do not concur because all but $28,264 of this amount
has already been recouped by WPS through the timely submission of amended and refiled claims
resulting in WPS making adjustments in future payments to the physicians in question.

Very tmly yours,

/JJI~t1,iA f/((}~
(~~atters
RDW/dk
cc: David Lamir
